Cardholder	  
Agreement
CARDHOLDER AGREEMENT
Defined terms—The following terms have
defined meanings in this agreement: "Account"
means the credit Account regulated by this
agreement, "Card" means the plastic cards
issued under this agreement, including the
numbers printed on these plastic cards; "we,"
"us" and "our" mean the financial institution
appearing on the face of a Card; "you" and "your"
mean anyone who signs an application for this
Account or is a guarantor of this Account; and
"Approval Letter" means our letter to you
approving your application and describing some
of the terms of the Account (the "Approval Letter"
which is part of the agreement).
By signing, using or activating a Card, you accept
the terms and conditions of this agreement and of
the Approval Letter. If any provision of this
agreement is determined to be unlawful, the rest
of the agreement will stand and the unlawful
provision will be deemed amended to conform to
applicable law. All Cards are our property and
must be returned to us immediately according to
our instructions, and we may repossess a Card at
any time in our sole discretion.
1. Promise to pay—You agree to pay us the
total amount of purchases, cash advances,
finance charges or other fees or charges which
arise from use of a Card by you or any other
person, unless the other person does not have
actual, implied, or apparent authority for such use
and you receive no personal benefit from the use.
You agree to be jointly and severally liable with
anyone else who has made the same promise.
2. Credit limit—Your credit limit is stated on the
credit card carrier, as well as on your monthly
statement. You promise to make purchases and
cash advances only up to your credit limit. Your
promise to pay continues to apply even if the
amount due exceeds your credit limit. Obtaining
credit in excess of your credit limit does not
increase your credit limit. We can change your
credit limit at any time to any amount (including
zero). We will state the new credit limit on your

next monthly statement.
3. Purchases and cash advances—You may
use your Card, up to your credit limit, to buy or
lease goods, services or insurance wherever the
Card is honored. You may also use your Card to
get a cash advance from participating financial
institutions. However, you agree not to use your
Card for any transaction that is illegal under
applicable federal, state or local law, and you
understand that any such use will constitute an
event of default under this agreement. We are not
responsible for the refusal of anyone to honor
your Card.
4. Monthly statements—We will send you a
statement at the end of each billing cycle in which
the Account has a balance. Each monthly
statement will show purchases, cash advances,
payments, adjustments, fees, debits and credits
made to the Account during the billing cycle.
Each monthly statement will also show the new
balance, the finance charge for the billing cycle,
the minimum amount you must pay, and the
deadline for our receipt of your payment, which
will be 25 days after the last day covered by the
statement.
5. Payments—You agree to make the minimum
monthly payments that are described in the
Approval Letter, and to make all payments on this
Account at the address specified on your monthly
statement. Your payments will be applied to the
balance due on this Account in the following
order: a) finance charges on previously billed
cash advances, b) finance charges on previously
billed purchases, c) unpaid annual membership
fees, d) purchases subject to a lower interest rate
than normal as a result of a special promotion, e)
amounts due on previously billed cash advances,
f) amounts due on previously billed purchases, g)
amounts due on most recently billed cash
advances, and h) amounts due on most recently
billed purchases subject to the normal interest
rate. We may accept late payments, partial
payments, post-dated checks, or any form of
payment containing a restrictive endorsement,
without losing any of our rights under this
agreement. Our acceptance of checks or money
orders labeled "payment in full" or words to that
effect, will not constitute an accord and
satisfaction nor a waiver of any rights we have to
receive full payment.
6. Periodic finance charge—The periodic
finance charge rate is stated as an annual
percentage rate and as a monthly periodic rate
on the Approval Letter and on your monthly
statement. The periodic finance charge for each
billing cycle will be computed by multiplying the
periodic finance charge rate times the average
daily balance of your Account during that cycle.
We get the "average daily balance" by adding
together the daily balance for each day in a cycle
and dividing the total by the number of days in

that cycle. The minimum finance charge for a
statement period during which there is a finance
charge is stated on the Approval Letter. We get
the "daily balance" of the Account by using one of
the following methods:
A. Payment within the grace period
method—If the Approval Letter specifies a
grace period in the paragraph labeled
"Annual Percentage Rate," and the new
balance shown on a monthly statement is
paid in full by the payment due date shown on
the statement, then no finance charge will be
imposed on the purchases itemized on that
statement. If this is the case, then we get the
"daily balance" of the Account for each day by
adding to the beginning balance all cash
advances and other debits (other than
purchases) and deducting all payments and
other credits made or received as of that day.
B. No grace method—If the Approval Letter
does not specify a grace period in the
paragraph labeled "Annual Percentage Rate"
or there is a grace period but the new balance
shown on a monthly statement is not paid in
full by the payment due date, then the "daily
balance" of the Account for each day is
determined by adding to the beginning
balance all purchases, cash advances and
other debits and deducting all payments and
other credits made or received as of that day.
7. Cash advance fee—Cash advances are
subject to the cash advance fee stated on the
Approval Letter, which is also a finance charge.
The cash advance fee is in addition to the
periodic finance charge, which is also imposed on
a cash advance from the date of the cash
advance. The following transactions will be
treated as cash advances:
• using your Card to obtain cash from a
participating Automated Teller Machine
("ATM");
• using your Card to obtain cash from a
participating financial institution;
• using a convenience check drawn on the
Account;
• obtaining money orders, travelers checks,
foreign currency, lottery tickets, casino chips,
vouchers redeemable for cash or similar
items.
8. Annual fee—The annual fee on the Account
is stated on the Approval Letter. The annual fee is
payable whether or not you use the Card.
9. Liability for unauthorized use—You may be
liable for the unauthorized use of your Card,
whether due to loss or theft of a Card or another
reason. You will not be liable for unauthorized use
that occurs after you notify us orally by calling 1800-234-5354 or you notify us in writing by
mailing the notice to P.O. Box 10409, Des
Moines, IA 50306. In any case, your liability will
not exceed $50.
10. Default—You will be in default if you fail to

make any minimum payment or other required
payment by the date that it is due. You also will be
in default if you violate any other provision of this
agreement and such violation materially impairs
the prospect of you paying the amount due on the
Account. Upon default, we may demand
immediate payment of the entire amount due on
the Account and we may enforce our right to this
payment as permitted by law.
11. International transactions— When you use
your Card for a transaction denominated in a
currency other than U.S. dollars, the transaction
amount will be converted into U.S. dollars by
applying an exchange rate selected by the Card
Association from among the range of rates
available in wholesale currency markets or the
government-mandated rate on the date the
transaction is processed. The rate chosen may
vary from the rate the Card Association itself
receives. When you use your Card in a
transaction outside of the United States to make
a purchase, obtain a cash advance, obtain a
credit voucher, or reverse any of these
transactions, a FINANCE CHARGE equal to one
percent of the amount of the transaction
(expressed as a positive number) will be
assessed against your Account. "Card
Association" means either VISA International or
MasterCard International.
12. Credit information—You authorize us to
investigate your credit standing when opening,
renewing or reviewing your Account, and you
authorize us to disclose information regarding
your Account to credit bureaus and other
creditors who may inquire of us about your credit
standing.
13. Other fees—The following charges will be
charged to your Account as appropriate:
A. Late, over limit, and returned check fees.
The Approval Letter states the late charge,
over limit charge, and returned check fees
that will be charged to your Account.
B. Replacement Cards, copies, and special
services. We may charge you a reasonable
fee for issuing replacement cards, providing
photocopies and reprints that you request,
and other special services as allowed by law.
14. Amendments—We may amend or cancel
this agreement at any time by getting your
consent as provided by law or by giving you a
notice of the amendments. Cards are property of
the Credit Union and must be returned at our
request.
15. Your billing rights—keep this notice for
future use - This notice contains important
information about your rights and your
responsibilities under the Fair Credit Billing Act.
Notify us in case of errors or questions about
your statement—If you think your statement is
wrong, or if you need more information about a
transaction on your statement, write us on a
separate sheet at the address listed on your

statement. Write to us as soon as possible. We
must hear from you no later than 60 days after we
sent you the first statement on which the error or
problem appeared. You can telephone us, but
doing so will not preserve your rights.
In your letter, give us the following information:
• Your name and Account number.
• The dollar amount of the suspected error.
• Describe the error and explain, if you can,
why you believe there is an error. If you need
more information, describe the item you are
not sure about.
If you have authorized us to pay your Account
automatically from your share Account, checking
Account, or through payroll deduction, you can
stop the payment on any amount you think is
wrong. To stop the payment, your letter must
reach us three business days before the
automatic payment is scheduled to occur.
Your rights and our responsibilities after we
receive your written notice - We must
acknowledge your letter within 30 days, unless
we have corrected the error by then. Within 90
days, we must either correct the error or explain
why we believe the statement was correct.
After we receive your letter, we cannot try to
collect any amount you question, or report you as
delinquent. We can continue to send statements
to you for the amount you question, including
finance charges, and we can apply any unpaid
amount against your credit limit. You do not have
to pay any questioned amount while we are
investigating, but you are still obligated to pay the
parts of your statement that are not in question.
If we find that we made a mistake on your
statement, you will not have to pay any finance
charges related to any questioned amount. If we
didn't make a mistake, you may have to pay
finance charges, and you will have to make up
any missed payments on the questioned amount.
In either case, we will send you a statement of the
amount you owe and the date that it is due.
If you fail to pay the amount that we think you
owe, we may report you as delinquent. However,
if our explanation does not satisfy you and you
write to us within ten days telling us that you still
refuse to pay, we must tell anyone we report you
to that you have a question about your statement.
And, we must tell you the name of anyone we
reported you to. We must tell anyone we reported
you to that the matter has been settled between
us when it finally is.
If we don't follow these rules, we can't collect the
first $50 of the questioned amount, even if your
statement was correct.
Special rule for credit card purchases —If you
have a problem with the quality of property or
services that you purchased with a Card, and you
have tried in good faith to correct the problem
with the merchant, you may have the right not to
pay the remaining amount due on the property or
services. There are two limitations on this right (a)

You must have made the purchase in your home
state, or if not within your home state, within 100
miles of your current mailing address; and (b) The
purchase price must have been more than $50.
These limitations do not apply if we own or
operate the merchant, or if we mailed you the
advertisement for the property or services.

	  
	  
	  

